2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

SHERWIN A. BROOK,
Petitioner,
vs.
J. LAWRENCE McCORMLEY, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7629 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of April, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Chk
: RENEE J. GOSS 9 ( head rear &
ry My Comm. Exp. September 5, 2023 =

Affiant 40898

       

 

Notary Public
